Memorandum from the Office of the Inspector General



July 26, 2010

Kimberly S. Greene, WT 7B-K

REQUEST FOR FINAL ACTION – AUDIT 2009-12593 – DISTRIBUTOR REVIEW OF
THE CITY OF CHATTANOOGA ELECTRIC POWER BOARD



Attached is the subject final report for your review and action. Your written comments,
which addressed your management decision and actions planned or taken, have been
included in the report. Please notify us when final action is complete.

Information contained in this report may be subject to public disclosure. Please advise us
of any sensitive information in this report that you recommend be withheld.

If you have any questions, or wish to discuss our findings, please contact Richard C.
Underwood, Project Manager, at (423) 785-4824 or Jill M. Matthews, Deputy Assistant
Inspector General, Audits and Support, at (865) 633-7430. We appreciate the courtesy
and cooperation received from your staff during the audit.




Robert E. Martin
Assistant Inspector General
 (Audits and Inspections)
ET 3C-K

RCU:HAC
Attachment
cc (Attachment):
      Steve Byone, WT 4B-K
      Peyton T. Hairston, Jr., WT 7B-K
      Tom D. Kilgore, WT 7B-K
      Richard W. Moore, ET 4C-K
      Emily J. Reynolds, OCP 1L-NST
      Joyce L. Shaffer, WT 9B-K
      Stephen B. Summers, WT 4B-K
      John M. Thomas III, MR 3A-C
      John G. Trawick, WT 3D-K
      Robert B. Wells, WT 9B-K
      OIG File No. 2009-12593
 


        
 


                                 Audit Report
 
Office
      of the Inspector General                              

                                 To the Group President,
                                 Strategy and External  
                                 Relations 
                                                            

 

 

 

 

DISTRIBUTOR REVIEW
 

 
OF THE CITY OF
 

CHATTANOOGA
ELECTRIC POWER
BOARD
 




 

 
 
 

 Audit Team                                Audit 2009-12593
Richard C. Underwood                           July 26, 2010
Melissa M. Neusel
Stephanie L. Simmons
Jennifer R. Torregiano
Office of the Inspector General                                                                       Audit Report




TABLE OF CONTENTS
EXECUTIVE HIGHLIGHTS ............................................................................ i

BACKGROUND................................................................................................ 1

OBJECTIVE, SCOPE, AND METHODOLOGY ........................................ 2

FINDINGS ......................................................................................................... 3

   PROPER REPORTING OF ELECTRIC SALES AND
   NONDISCRIMINATION IN PROVIDING POWER TO MEMBERS OF THE
   SAME RATE CLASS ........................................................................................ 4

   USE OF ELECTRIC SYSTEM REVENUES ..................................................... 5

   CONTRACT COMPLIANCE ISSUE ................................................................. 7

   DISTRIBUTOR INTERNAL CONTROL ISSUE ................................................ 8

   TVA OVERSIGHT OPPORTUNITIES .............................................................. 8

RECOMMENDATIONS .................................................................................. 9


APPENDICES
A. LETTER DATED JULY 15, 2010, FROM GREGORY S. EAVES TO
   ROBERT E. MARTIN

B. MEMORANDUM DATED JULY 13, 2010, FROM KIMBERLY S. GREENE TO
   ROBERT E. MARTIN




Audit 2009-12593
                         TVA Office of                             July 2010
                         the Inspector                             Audit 2009-12593
                         General                                   City of Chattanooga Electric Power
                                                                   Board
Why the OIG Did This Review                                        What the OIG Found
As part of the annual audit plan, the OIG performed a              Our review of Chattanooga found improvements were
review of the City of Chattanooga Electric Power                   needed in the areas of:
Board (Chattanooga), which is a distributor for                     Customer Classification and Metering – We identified
Tennessee Valley Authority (TVA) power based in                      12 customer accounts not classified correctly and one
Chattanooga, Tennessee. Annual revenues from                         metering issue that could impact (1) the proper reporting
electric sales were approximately $461 million in                    of electric sales and (2) nondiscrimination in providing
fiscal year (FY) 2008. TVA relies on distributors to                 electricity to members of the same rate class. We were
self-report customer usage and subsequently the                      unable to estimate the monetary effect of the
amount owed to TVA (Schedule 1). Customers are                       classification issues because information was not
generally classified as residential, commercial,                     available.
manufacturing, and lighting. Within these classes are
                                                                      Contract Compliance – We identified an area where
various rate classifications based on the customer
                                                                       Chattanooga was not meeting power contract requirements
type and usage. 
                                                                       with TVA. Specifically, we found three customers with
                                                                       demand above 1 megawatt without a contract.
The objective of the review was to determine
compliance with key provisions of the power contract                Distributor Internal Controls – We noted an area
between TVA and Chattanooga including (1) proper                     where Chattanooga's internal controls could be
reporting of electric sales by customer class to                     strengthened to improve completeness, accuracy, and
facilitate proper revenue recognition and billing by                 validity of billing system data. Specifically, we found
TVA; (2) nondiscrimination in providing power to                     there were no reports or notifications generated of
members of the same rate class; and (3) use of                       logged changes to key fields in the billing system master
revenues, including any surplus, for approved                        file that could be reviewed by independent
purposes, such as operating expenses, debt service,                  management.
tax equivalent payments, and reasonable reserves for               In addition, we found Chattanooga had more than enough
renewals, replacements, and contingencies.                         cash on hand to cover planned capital projects and provide
                                                                   a cash reserve of about 13 percent. As of June 30, 2008,
What the OIG Recommends                                            Chattanooga reported about $121.2 million in cash and had
                                                                   capital expenditures in FY 2009 of about 64.7 million, which
We recommend the Group President, Strategy and                     left cash reserves of about $56.5 million. While TVA has
External Relations, work with Chattanooga to                       established guidelines to determine if a distributor has
(1) remediate classification and metering issues,                  adequate cash reserves (cash ratio of 5 to 8 percent), TVA
(2) better comply with identified contract provisions              has not established guidelines to determine if a distributor's
related to customer contracts, and (3) add additional              cash reserves are excessive. Based on prior distributor
controls related to certain billing system data.                   audit findings, TVA is in the process of defining criteria for
                                                                   determining when a distributor's cash reserves are
TVA and Chattanooga management generally agreed                    excessive.
with and are taking actions to address
recommendations 1 and 2. In regard to                              Finally, we identified certain opportunities to enhance TVA
recommendation 3, Chattanooga believes billing                     oversight of the distributors that were also identified in
system controls are in place to minimize the risk of a             previous distributor audits. TVA is in the process of
material misstatement. See Appendices for complete                 addressing these findings, which include the lack of (1) a
responses.                                                         joint cost study, (2) guidance for distributors on what
                                                                   constitutes prudent expenditures, and (3) criteria for
For more information, contact Richard C. Underwood, Project        evaluating when a distributor's cash is excessive.
Manager, at (423) 785-4824 or Jill M. Matthews, Deputy Assistant
Inspector General, Audits and Support, at (865) 633-7430.




                                                                                                                             Page i
Office of the Inspector General                                                               Audit Report


BACKGROUND
The City of Chattanooga Electric Power Board (Chattanooga) is a distributor for
Tennessee Valley Authority (TVA) power based in Chattanooga, Tennessee, with
revenues from electric sales of approximately $461 million in fiscal year (FY) 2008.
TVA relies on distributors to self-report customer usage and subsequently the
amount owed to TVA (Schedule 1). Customers are generally classified as
residential, commercial, manufacturing, and lighting. Within these classes are
various rate classifications based on the customer type and usage. Table 1 shows
the customer mix for Chattanooga as of June 2008.

                      Chattanooga's Customer Mix as of June 2008
                                              Number of                                   Kilowatt
       Customer Classification                                        Revenue
                                              Customers                                  Hours Sold
    Residential 146,95                                       9        $188,029,744       2,309,730,041
    General Power – 50 Kilowatt (kW)
                                                       19,396            34,484,286 380,66        8,351
    and Under (Commercial)
    General Power – Over 50 kW
                                                         3,450          228,526,389 3,271,16      2,091
    (Commercial or Manufacturing)
    Street and Athletic                                    136           3,005,231          34,434,259
    Outdoor Lighting1 0                                                  2,638,860          22,164,511
    Unbilled Revenue                                                     4,038,608
      Total                                           169,941         $460,723,118       6,018,159,253
                                                                                                Table 1

The distributors are required to establish control processes over customer setup,
rate application, and measurement of usage to ensure accurate and complete
reporting to TVA. Chattanooga utilizes enQuesta, a computerized Customer
Information System, to collect and process information related to all aspects of its
end-use billing process including: customer information, meter information,
meter reading history, meter test results, billing calculations, and billing summary
reports. The enQuesta system (1) was developed by Systems & Software
(S&S), (2) is operated by Chattanooga, and (3) runs on computers that are
owned and operated by Chattanooga. All other accounting and finance
responsibilities are handled by Chattanooga’s Board of Directors, President and
Chief Executive Officer, and executive management team who provide oversight
and perform the daily activities. Chattanooga also operates fiber optic
businesses providing telecommunications, internet, and television.




1
     This customer count excludes those customers who have Outdoor Lighting accounts with Chattanooga
     as well as accounts for other services. At June 30, 2008, there were 10,260 of these customers. The
     kilowatt hours sold include all kilowatt hours for all accounts.
Audit 2009-12593                                                                                   Page 1
Office of the Inspector General                                                                       Audit Report


OBJECTIVE, SCOPE, AND METHODOLOGY
This audit was initiated as a part of our annual workplan. The objective was to
determine compliance with key provisions of the power contract between TVA
and Chattanooga including:
    Proper reporting of electric sales by customer class to facilitate proper
     revenue recognition and billing by TVA.
    Nondiscrimination in providing power to members of the same rate class.
    Use of revenues, including any surplus, for approved purposes, such as:
      Operating expenses
      Debt service
      Tax equivalent payments
      Reasonable reserves for renewals, replacements, and contingencies

To achieve our objective, we:
 Reviewed Statement on Auditing Standard 70 work performed by an external
   audit organization related to procedures and controls in place to ensure
   complete and accurate invoicing of payments to TVA.
    Obtained Chattanooga large customer electric sales statistics reported to TVA
     for the audit period. The information was not complete because TVA does
     not obtain rate usage and demand information from distributors for any
     customers classified below the General Power Rate – Schedule GSA Part 2.2
     We used the information available to generate reports of exceptions related to
     classification and metering and conducted further review of documentation
     and discussed with management.
    Obtained customer data from Chattanooga and performed analyses related to
     proper classification and conducted further review of documentation and
     discussed with management.
    Documented and tested the procedures and controls in place to ensure
     complete and accurate invoicing of payments to TVA.




2
    Under the General Power Rate – Schedule GSA between Chattanooga and TVA, customers are
    classified based on the following requirements:
     GSA Part 1 – If (a) the higher of (i) the customer's currently effective contract demand, if any, or (ii) its
       highest billing demand during the latest 12-month period is not more than 50 kW and (b) the
       customer's monthly energy takings for any month during such period do not exceed 15,000 kWh.
     GSA Part 2 – If (a) the higher of (i) the customer's currently effective contract demand or (ii) its
       highest billing demand during the latest 12-month period is greater than 50 kW but not more than
       1,000 kW or (b) the customer's billing demand is less than 50 kW and its energy takings for any
       month during such period exceed 15,000 kWh.
     GSA Part 3 – If the higher of (a) the customer's currently effective contract demand or (b) its highest
       billing demand during the latest 12-month period is greater than 1,000 kW.
Audit 2009-12593                                                                                           Page 2
Office of the Inspector General                                                                  Audit Report


    Determined through inquiry and review of documentation whether
     Chattanooga had any nonelectric, system-related business interests
     supported by electric system funds.
    Reviewed disbursements to determine if electric system funds were used for
     any items not allowed under the TVA power contract.
    Reviewed methodology for allocations between electric and nonelectric lines
     of business for reasonableness and consistency of application.
    Reviewed cash and cash equivalents in relation to planned capital
     expenditures and other business uses of cash.
    Used nonstatistical sampling methods as needed to perform the tests above.

The scope of the review was for the period July 2006 through June 2008.
Fieldwork was conducted October 2009 through March 2010. This performance
audit was conducted in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings
and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on
our audit objectives. In performing this audit, nothing came to our attention that
indicated noncompliance with applicable laws and regulations.

FINDINGS
Our review of Chattanooga found issues involving customer classification and
metering that could impact (1) the proper reporting of electric sales and
(2) nondiscrimination in providing power to members of the same rate class. In
addition, we found Chattanooga had more than enough cash on hand to cover
planned capital projects and provide a cash reserve of about 13 percent. While
TVA has established guidelines to determine if a distributor has adequate cash
reserves (cash ratio3 of 5 to 8 percent), TVA has not established guidelines to
determine if a distributor's cash reserves are excessive.4




3
    TVA reviews the cash ratios of distributors as part of its regulatory rate review function. Cash ratio is
    calculated as follows:                          Cash + Cash Equivalents
                               Total Variable Expenses (Operations and Maintenance + Purchased Power)
4
    In separate reports issued regarding other distributors in May 2009, we recommended TVA develop
    criteria to be used in determining whether a distributor's cash reserves are excessive and incorporate the
    criteria into the rate setting process. TVA management agreed and will make recommendations to the
    TVA Board that additional financial metrics be employed for purposes of administering the resale rate
    provisions in Section 5 of the wholesale power contracts. The need to consider cash reserves will be
    included in TVA management's recommendations to the Board. A change in the current guidelines to
    include these additional financial metrics requires Board action. Target completion date is December
    2010.
Audit 2009-12593                                                                                       Page 3
Office of the Inspector General                                                               Audit Report


We also found improvements were needed to (1) comply with contract provisions
regarding the establishment of written contracts with customers, and (2) improve
Chattanooga's internal controls related to monitoring of data changes. Finally,
we identified certain opportunities to enhance TVA oversight of the distributors.

PROPER REPORTING OF ELECTRIC SALES AND
NONDISCRIMINATION IN PROVIDING POWER TO MEMBERS OF
THE SAME RATE CLASS
As discussed below, we identified customer classification and metering issues
that could impact the proper reporting of electric sales. In addition, these issues
impact the ability to ensure nondiscrimination in providing power to members of
the same rate class.5 We were unable to estimate the monetary effect of these
issues because we did not have sufficient information available. Correcting
customer classification and metering issues is important to ensure all customers
are placed in the correct rate classification and charged the same rate as other
customers with similar circumstances.

Customer Classification Issues
We reviewed a listing of all residential customers provided by Chattanooga for
account names with characteristics that could indicate misclassification. We
noted several hundred accounts with names that included “LLC,” “Church,” “CH,”
“Co.,” “Inc.,” “Partnership,” etc., that could indicate the account should be
classified as commercial rather than residential. Many of these account names
appeared to be related to apartment complexes, construction companies, banks,
or property management companies indicating that the account was connected
with a premises used as a residence and were not chosen for further review
because Chattanooga personnel informed us their policy was, if a premises is
used as a single residential dwelling, whether occupied or not, it is classified as
residential.6 Taking this policy into consideration, we selected a judgmental
sample of 33 customer accounts and found 12 accounts were incorrectly
classified. Specifically, we found these 12 customer accounts were commercial
businesses. According to Chattanooga personnel, these accounts have been or
are in the process of being reclassified.




5
    Section 5 Resale Rates subsection (a) of the power contract between TVA and Chattanooga states,
    "power purchased hereunder shall be sold and distributed to the ultimate consumer without
    discrimination among consumers of the same class and that no discriminatory rate, rebate, or other
    special concession will be made or given to any consumer, directly or indirectly."
6
    The Availability Section of the Electric Power Board of Chattanooga Residential Rate – Schedule RS
    states, “This rate shall apply only to electric service to a single-family dwelling (including its
    appurtenances if served through the same meter), where the major use of electricity is for domestic
    purposes such as lighting, household appliances, and the personal comfort and convenience of those
    residing therein.”
Audit 2009-12593                                                                                   Page 4
Office of the Inspector General                                                                 Audit Report


Metering Issue
In addition to the customer classification issues, our review of large customer
data reported to TVA noted an issue related to metering of customers at
Chattanooga. We found 31 customers classified as GSA Part 2 had energy
usage in excess of 25,000 kilowatt hours (kWh) but were not measured for
demand.7 Under Part 2 of the GSA schedule and the Wholesale Power Rate –
Schedule WS with TVA, there would be no effect on the revenues for TVA or the
distributor unless customer demand exceeded 50 kW. Without demand meters
in place or evidence indicating other circumstances exist that would prevent a
customer from exceeding demand of 50 kW, we could not determine if any of
these customers would have exceeded 50 kW.8 Therefore, we were unable to
estimate the monetary effect of this issue. Chattanooga personnel stated the
decision to install a demand meter was handled on a case-by-case basis based
on the billing system edit criteria and the periodic cycle testing of the metering
sites. However, no documentation of evaluations was available for the
31 customers identified with energy usage in excess of 25,000 kWh. During our
fieldwork, Chattanooga personnel stated a process was recently put in place to
(1) identify customers with demand in excess of 25,000 kWh and (2) perform a
review to determine if a demand meter is necessary. Additionally, Chattanooga
personnel stated with the planned rollout of an Advanced Meter Infrastructure
over the next two years, all commercial meters will measure demand regardless
of the customer's rate classification.

USE OF ELECTRIC SYSTEM REVENUES
Under the TVA power contract, approved uses of revenues from electric system
operations, including any surplus, are (1) operating expenses, (2) debt service,
(3) tax equivalent payments, and (4) reasonable reserves for renewals,
replacements, and contingencies. While TVA has established guidelines to
determine if a distributor has adequate cash reserves (cash ratio of 5 to 8 percent),
TVA has not established guidelines to determine if a distributor's cash reserves
are excessive.


7
    Demand is a measure of the rate at which energy is consumed. The demand an electric company must
    supply varies with the time of day, day of the week, and the time of year. Peak demand seldom occurs
    for more than a few hours or fractions of hours each month or year, but electric companies must maintain
    sufficient generating and transmission capacity to supply the peak demand. Demand charges represent
    the high costs electric companies pay for generating and transmission capacity that sits idle most of the
    time. Demand charges are based on the amount of energy consumed in a specified period of time
    known as a demand interval. Demand intervals are usually 15 or 30 minutes. (Engineering Tech Tips,
    December 2000, Dave Dieziger, Project Leader, United States Department of Agriculture Forest Service,
    Technology & Development Program, http://www.fs.fed.us/eng/pubs/htmlpubs/htm00712373/index.htm.)
    For TVA distributors, the commercial and manufacturer Schedules of Rates and Charges direct that
    metered demand be calculated as “the highest average during any 30-consecutive-minute period of the
    month of the load metered in kW.”
8
    In response to a finding in a previous report, TVA issued guidance to distributors in February 2010 on
    how to evaluate the installation of a demand meter once a customer’s monthly usage exceeds
    25,000 kWh since it is probable such a customer would meet the 50 kW threshold for demand charges
    for GSA Part 2 customers. TVA further instructed, for any distributor evaluation that indicates no
    demand meter is needed, the evaluation be documented and maintained on file indicating the basis for
    the conclusions reached.
Audit 2009-12593                                                                                     Page 5
Office of the Inspector General                                                    Audit Report


We found Chattanooga had more than enough cash on hand to cover planned
capital projects and provide a cash reserve. As of June 30, 2008, Chattanooga
reported about $121 million in its cash and cash equivalent accounts, and the
cash reserve after actual FY 2009 capital expenditures was about 13 percent.

Table 2 shows information about plans for major capital expenditures obtained
from Chattanooga.

                      Chattanooga's FY 2009 Capital Expenditures

                       Capital Expenditure Plans                           Project Cost
 Smart Grid Network                                                             $26,421,000
 Optical Fiber                                                                   26,040,183
 New Business                                                                     7,345,000
 Purchase of Meters and Accessories                                               6,786,416
 Business Process Automation                                                      5,067,880
 Overhead Line Extensions for Improvements                                        2,941,600
 Purchase of UG Distribution Transformers                                         2,541,490
 Substation Additions and Improvements                                            2,460,000
 Distribution Building Additions and Improvements                                 2,276,000
 Purchase of OHL Distribution Transformers                                        1,235,050
 Purchase of Automotive Equipment                                                 1,160,520
 Street Lighting                                                                    790,000
 46 KV Overhead Lines                                                               746,000
 Underground Line Extensions for Improvements                                       490,000
 Relocations for Streets and Highways                                               350,000
 Demand Side Management                                                             324,000
 Purchase of Major Substation Equipment                                             300,000
 Office Center Additions and Improvements                                           276,000
 Purchase of Service Equipment, Small Tools, Lab Equipment                          273,000
 Purchase of Office Furniture and Equipment                                          50,000
  Total Actual Capital Expenditures (Excluding Overheads) $87,874,139
                                                                                      Table 2

When compared to Chattanooga's actual capital expenditures for FY 2009, the
balance in Chattanooga's cash accounts was enough to pay for these items and
leave about $56.5 million as a reserve, as shown in Table 3. Table 3 also shows
Chattanooga's cash ratio percentage was about 28.5 percent before accounting
for actual FY 2009 capital expenditures and about 13 percent after accounting for
them.

 Chattanooga's Cash Accounts Compared to FY 2009 Capital Expenditures
                                                 Actual FY 2009
                              Cash and Cash                        Reserve After FY 2009
                                                    Capital
                               Equivalents                       Actual Capital Expenditures
                                                  Expenditures
 FY 2008                          $121,201,860       $64,664,000                 $56,537,860
 Cash Ratio Percentage                 28.47%                                        13.28%
                                                                                      Table 3

Audit 2009-12593                                                                        Page 6
Office of the Inspector General                                                                   Audit Report


According to TVA records, over the past five years Chattanooga was approved
for a rate increase in July 2007. Table 4 shows the rate increase received by
Chattanooga and the cash position and cash ratio at June 30 prior to the
effective date of the rate increase.

           Chattanooga's Rate Increases, Cash Position, and Cash Ratio
       Cash on Hand               Cash and Cash                            Rate Increase10
     Equivalent to an 8%           Equivalents9             Additional
         Cash Ratio               and Cash Ratio                              Percent       Effective Date
                                                            Revenue
        $32,017,130                  $62,930,421           $16,194,000 4.02%                   7/1/2007
                                     (CR – 15.72%)
                                                                                                      Table 4
Discussions with Chattanooga management indicated their operating philosophy
was to manage debt so existing customers are not paying for benefits to future
customers.

CONTRACT COMPLIANCE ISSUE
We noted one area where Chattanooga was not meeting the requirements of the
power contract with TVA. The GSA schedule from TVA requires all customers
who exceed 50 kW per month to sign a formal contract. However, TVA
management, in response to previous reports, indicated the threshold of 50 kW
for requiring customer contracts was too low. TVA management will recommend
to the Board that a new and higher threshold be established as part of the rate
change process with the distributors. In further discussions with TVA personnel,
the proposed threshold for requiring a contract is 1 megawatt (MW).11 We found
three Chattanooga customers with metered demand greater than 1 MW without a
contract. Each customer contract includes a contract demand that is used in
placing the customer in the correct classification. Contract demand is also used
in calculating the customer's billed demand and minimum bill.




9
     The cash and cash equivalents and cash ratio were computed based on information from Chattanooga’s
     annual report as of June 30 prior to the effective date of the rate increase.
10
     These are the rate increases requested by and approved for the distributor. These increases do not
     include any rate increases or decreases made by TVA, including fuel cost adjustments, which were
     passed through by the distributor to the customer.
11
     When the rate change is put into effect, all retail customers above the new threshold will be expected to
     have executed contracts. Target completion date will coincide with the rate change efforts that are
     currently under way with the distributors and is expected to be in place by October 2010.
Audit 2009-12593                                                                                       Page 7
Office of the Inspector General                                               Audit Report


DISTRIBUTOR INTERNAL CONTROL ISSUE
We noted an area where Chattanooga's internal controls over the generation of
Schedule 1 could be strengthened to improve completeness, accuracy, and
validity of the billing data. Specifically, we found the generation of a report
(or system-generated notifications) identifying manual changes to key fields in
the system's customer master file on all accounts and the subsequent review by
management would strengthen Chattanooga's controls. Chattanooga was
logging changes to key fields in the customer master file, which includes
customer classifications and applicable industry codes. However, we found
through discussions with Chattanooga personnel that a report is not generated
and sent to management for review that shows the changes made in the system.
We did note the changes were identified on screens when individual customer
accounts were viewed, but only changes to the specific account are visible. The
generation of a report (or system-generated notifications) identifying manual
changes to key fields in the system’s customer master file on all accounts and
the subsequent review by management would allow Chattanooga management
to identify any changes made without the proper justification or approval.

TVA OVERSIGHT OPPORTUNITIES
We found opportunities to enhance TVA’s oversight of this distributor. We noted
issues for this distributor were also reported in previous Office of the Inspector
General (OIG) distributor reports. Specifically we noted TVA has not:

   Provided definitive guidance for distributors on what constitutes prudent
    expenditures.
   Performed a joint cost study. TVA personnel stated a joint cost study was not
    performed because Chattanooga did not have additional business divisions
    until venturing into broadband in 2008. However, we noted Chattanooga’s
    telecommunications division has been in place since 1999. According to the
    TVA Accountant's Reference Manual, cost allocations are to be formally
    reviewed by the distributor and TVA every three to four years or when major
    changes occur that affect joint operations.
   Defined criteria for evaluating when a distributor's cash is excessive.

In response to the previous reports, TVA agreed to take corrective actions on
these issues. Full discussion of these issues and TVA's planned actions can be
found in prior OIG distributor reports on our Web site, www.oig.tva.gov.




Audit 2009-12593                                                                   Page 8
Office of the Inspector General                                           Audit Report


RECOMMENDATIONS
We recommend the Group President, Strategy and External Relations, work with
Chattanooga to improve compliance with the contract and/or strengthen internal
controls. Specifically, Chattanooga should:

1. Develop procedures to identify customers that are misclassified as residential
   when the location should be classified as commercial.

    Chattanooga's Response – Chattanooga has controls in place to detect
    possible misclassifications that are performed during each billing cycle.
    Numerous edits exist in the system and produce reports for accounts to be
    reviewed prior to the account being billed. These reports are reviewed by the
    Billing Department, and actions are taken to correct the accounts if it is
    determined an error exists. An additional quarterly audit test will be
    implemented, performed by the Chattanooga Internal Audit staff, to test for
    misclassifications. Any potential discrepancies identified during the audit test
    will be submitted to the Billing Department for further review and correction as
    necessary. The first audit test will be performed for the quarter ending
    September 30, 2010. See Appendix A for Chattanooga’s complete response.

    TVA Management's Comments – TVA agreed with the recommendation and
    noted Chattanooga is working with the billing agency to resolve classification
    and billing issues. See Appendix B for TVA's complete response.

    Auditor's Response – The OIG concurs with the planned actions.

    We amended the Customer Classification Issues section of this report to
    provide additional information on our review of residential customers.

2. Obtain contracts for all customers with demand of 1 MW or more.

    Chattanooga's Response – The customers identified as having a demand of
    1 MW did not consistently have a demand of 1 MW or more. One customer
    exceeded the threshold for one month out of the two-year audit period, one
    customer exceeded the threshold for two months out of the two-year period,
    and the other customer exceeded the threshold four months out of the two-
    year period. Chattanooga has contracts on file for our customers whose
    demand exceeds 1 MW consistently on a monthly basis. We will implement a
    quarterly review of customers with demand of 1 MW or more and determine if
    a contract is on file and take corrective actions as necessary. The first review
    will be performed for the quarter ending September 30, 2010. See Appendix
    A for Chattanooga’s complete response.

    TVA Management's Comments – TVA agreed with the recommendation and
    noted the current contract requirement under the standard Schedule of Rates
    and Charges to wholesale contracts with distributors requires retail contracts

Audit 2009-12593                                                               Page 9
Office of the Inspector General                                           Audit Report


    be executed with all customers whose contract demand exceeds 50 kW. TVA
    management plans to recommend to the Board that the contract demand
    threshold for the contract requirement be set at 1 MW and be implemented
    through the rate change process. The target completion date will coincide
    with the rate change efforts that are currently under way with the distributors.
    This change is expected to be in place by April 2012. See Appendix B for
    TVA's complete response.

    Auditor's Response – The OIG concurs with the planned actions.

3. Work with S&S to generate a report or notifications to management when
   manual changes are made to key fields within the master file of the enQuesta
   system.

    Chattanooga's Response – Chattanooga has restricted access to a limited
    number of individuals to make changes to the master file. Management,
    supervisors, and employees selected by management based on their
    experience are the only individuals authorized to make changes to the master
    file data, which minimizes the risk of a material misstatement. See
    Appendix A for Chattanooga’s complete response.

    TVA Management's Comments – TVA management noted they feel that
    generating such a report may result in an improvement to the power
    distributor’s system; however, the Power Contract does not require such a
    report. Therefore, TVA does not plan to take any action on this. See
    Appendix B for TVA's complete response.

    Auditor's Response – The OIG maintains that generation and review of a
    report of manual changes would result in improved internal controls over the
    distributor's billing system.




Audit 2009-12593                                                             Page 10
APPENDIX A
 Page 1 of 2
APPENDIX A
 Page 2 of 2
APPENDIX B
 Page 2 of 4
APPENDIX B
 Page 3 of 4
APPENDIX B
 Page 4 of 4
